September 11, 2020

By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk,
1 First Street, N.E.
Washington, D.C. 20543
Re:

Reinaldo Dennes v. State of Texas, No. 20-5360

Dear Mr. Harris:
This letter is to request a 30-day extension of time, up to and including October 15,
2020, in which to file a brief in opposition in the above-styled cause. This request for
an extension of time is not intended to unnecessarily delay this proceeding. Rather,
the undersigned counsel has only recently been assigned to handle this case.
Therefore, the undersigned requires additional time to read the lengthy record and
sufficiently address the issues raised in Dennes’s petition.
The undersigned communicated with Kenneth McGuire, counsel for Dennes, who
does not oppose this motion.
Thank you for your consideration of this matter.
Sincerely,
RACHEL L. PATTON
Assistant Attorney General
(512) 936-1400
cc:

Kenneth McGuire
P.O. Box 79535
Houston, Texas 77279
kenneth.mcguire@att.net

POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548 TEL:(512) 463-2100
An Equal Employment Opportunity Employer

WEB: WWW.TEXASATTORNEYGENERAL.GOV

